     OFFICE of
INSPECTOR GENERAL

Date       :January 9, 2014
Reply to
Attnor     :   OffiGe of Inspector General (OIG)

subject    :Management Letter No. 14-02, Untimely Notification Hinders OIG's Ability to
            Investigate Potential Theft and Places NARA Holdings at Risk

To         :DavidS. Ferriero, Archivist of the United States (N)

The purpose of this management letter is to alert you to a situation that could hinder the OIG's
ability to timely identify subjects and detect and recover holdings stolen from Archives II.
Specifically, neither the OIG nor the Holdings Protection Team (HPT) were notified as soon as
possible of a recent incident at Archives II where a researcher allegedly tried to conceal or steal
NARA documents. Without timely notification of potential concealment or theft, the
opportunity to conduct probable cause searches may be lost and witness reliability may be
compromised. IfNARA employees delay notifying the HPT and the OIG, NARA holdings are
at risk of permanent loss and damage.

On December 12, 2013, the HPT reported to the OI allegations a NARA researcher concealed
documents under their clothing and left Archives II before the research room staff could fully
identify and question them. A research room supervisor notified the HPT on December 11, 2013
and explained a student employee had reported the incident to them on December 9, 2013, the
day it occurred.

The OI immediately reviewed video surveillance, interviewed witnesses, and reviewed
researcher entrance/exit logs. The OI identified the researcher and determined they were
currently at Archives II. The OI then interviewed the researcher who admitted they had
concealed documents under their clothing before leaving the Archives II research room on
December 9, 2013. However, they denied the documents were NARA holdings.

NARA Directive 1572 and NARA 1572 Supplement 1 (supplement) establish NARA's policy on
preventing theft and vandalism ofNARA holdings in NARA facilities and provides guidance to
staff for addressing possible acts of thefts or vandalism. In part, the supplement directs NARA
employees to report suspected concealment and theft of holdings to a supervisor, on-site security,
the HPT and the OIG. However, neither the directive nor the supplement provides guidance on
how quickly a NARA employee should contact the OIG and/or the HPT.
Research room supervisor did not immediately contact the HPT or OIG

The research room supervisor told the OI a student employee told her about the incident on
December 9, 2013 at approximately 3:00p.m. However, the supervisor did not notify the HPT
or the OIG at that time. On December 10, 2012, Archives II was closed because of inclement
weather, so the supervisor waited to contact the HPT until the morning of December 11, 2013.
The research room supervisor did not attempt to contact the OIG.

After the HPT notified the OIG on December 12, 2013, the OI identified and interviewed the
researcher within hours. The OI reviewed researcher access logs and determined the suspect
researcher entered and departed the researcher room at least three times after student employee
reported the incident to a supervisor. Had the research room supervisor notified the HPT and the
OIG on December 9, 2013, the OI would have likely identified the researcher and interviewed
her before she returned to Archives II on December 11, 2013.

The OI investigation found no evidence the researcher removed NARA holdings from Archives
II. However, the notification delay created at least three more opportunities for a researcher
(who successfully concealed documents on their person before leaving a NARA facility) to steal
from Archives II.

The HPT did not respond the research room supervisor in a timely fashion

On December 11, 2102, the research room supervisor called two HPT employees and left them
both voice mail messages. The OI learned both HPT employees were on leave December 11,
2013 and did not receive the phone messages until December 12, 2013. After they received the
messages, the HPT employees contacted the OIG.

Although not all HPT personnel are responsible for Archives II, all eight full-time employees are
assigned to College Park. There is no single direct line for NARA employees to report holdings
protection concerns and suspected violations, so NARA staff must be familiar with the HPT staff
assigned to their facility and contact them directly. If a direct line to HPT had been available to
the research room supervisor, HPT may have been able to respond on December 11, 2013.

HPT personnel are unfamiliar with research room cameras and video surveillance software

HPT staff told the OI that the HPT consolidated with BX approximately one year ago.
Subsequently, BX consolidated the HPT's video access into BX's overall video surveillance
capabilities. HPT staff told the OI they are unfamiliar with the consolidated BX system and
could not access the video footage necessary to identify the subject researcher, which delayed the
OIG's ability to quickly identify the subject researcher.




                                              Page2
Problems with cameras in the Archives II researcher rooms delayed the OI's ability to identify
the subject researcher

   • 	 Camera 102 in the fourth floor research room appears inoperable on BX monitors. The
       video feed in the research room labeled as the same camera is from a camera on the
       Archives II building exterior and not of the research room.

   • 	 Camera feeds from the research rooms are mislabeled. For example, the video software
       labels a fourth floor video feed as coming from a fifth floor camera.

The subject researcher and others were wearing multiple clothing layers in the research rooms

When the 01 identified and interviewed the subject researcher, the researcher was wearing
multiple layers of clothing. Although they were not wearing clothing consistent with NARA's
definition of"outerwear," the layered clothing did facilitate concealing documents on her person.
The 01 also observed similarly dressed researchers in the Archives II research rooms.

SUGGESTED REMEDIATION:

The OIG suggests NARA management consider:

   • 	 Taking actions to ensure all NARA staff are familiar with the guidance in the supplement
       (i.e. report suspected concealment ofNARA holdings directly to on-site security, the
       HPT and the OIG).

   • 	 Reviewing the supplement and adding guidance concerning the need to report suspected
       violations to the HPT and the OIG as soon as possible.

   • 	 Assessing the adequacy and effectiveness of the holdings protection program.

    • 	 Assessing the effectiveness and reliability of video recording capabilities in the Archives
        II research rooms.

    • 	 Assessing if Archives II research room staff is effectively restricting researcher clothing.

Please provide a written response to these matters within 30 days of the date of this letter. The
01 will also issue a Report of Investigation detailing the full findings of their investigation. If
you have questions or require additional information, please contact me or Matthew Elliott, my
Assistant Inspector General for Investigations, at 301-837-2941.
                                      '




~~
James Springs
Acting Inspector General
                                                                     

                                               Page3
